 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


THE CENTERS FOR DISEASE CONTROL
 AND PREVENTION’S NAMIBIA OFFICE
DID NOT ALWAYS PROPERLY MONITOR
RECIPIENTS’ USE OF THE PRESIDENT’S
EMERGENCY PLAN FOR AIDS RELIEF
              FUNDS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                       November 2012
                                                       A-04-12-04020
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act)
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria.

The 2008 Act gives the Department of Health and Human Services (HHS) Centers for Disease
Control and Prevention (CDC) a leadership role in several key areas of research and evaluation
in implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other in-country partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

HHS receives PEPFAR funds from the Department of State through a memorandum of
agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195), as amended, and
the 2003 Act, as amended. For fiscal year (FY) 2009, CDC “obligated” PEPFAR funds totaling
$1.2 billion.

CDC has established offices in many of the countries where it awards PEPFAR funds. CDC’s
office in Windhoek, Namibia (CDC Namibia), is responsible for PEPFAR funds awarded to
government agencies and for-profit and nonprofit organizations (recipients) in Namibia. The
main focus of the PEPFAR program in Namibia is to strengthen health systems, prevent new
HIV and tuberculosis (TB) infections, provide care and treatment services, support HIV and TB
programs, and establish a global disease detection program. CDC awarded $41 million to five
recipients in Namibia during FY 2009.

This audit focused on $39.5 million that CDC awarded to four recipients in Namibia during FY
2009. CDC awarded these funds through cooperative agreements, which it uses in lieu of grants,
when it anticipates the Federal Government’s substantial involvement with recipients in
accomplishing the objectives of the agreements. The laws and regulations that apply to Federal
grants also apply to cooperative agreements.

HHS’s Awarding Agency Grants Administration Manual states that the program official has
primary responsibility for the postaward administration phase and must document each
monitoring action. The program official must document the adequacy of the recipients’
performance at least annually during the project period.




                                               i
OBJECTIVE

Our objective was to determine whether CDC Namibia monitored recipients’ use of PEPFAR
funds in accordance with HHS and other Federal requirements.

SUMMARY OF FINDINGS

CDC Namibia did not always monitor recipients’ use of PEPFAR funds in accordance with HHS
and other Federal requirements. There was evidence that CDC Namibia performed some
monitoring of recipients’ use of PEPFAR funds. However, most of the recipient cooperative
agreement files did not include required documents or evidence that CDC Namibia had
monitored all cooperative agreements. Of the four files reviewed:

   •   Three contained no evidence that CDC Namibia had evaluated the recipients’ annual
       progress reports. In addition, CDC Namibia had not obtained the annual progress report
       from one recipient.

   •   Two contained no evidence that CDC Namibia had reviewed the recipients’ annual
       financial status reports (FSRs). In addition, CDC Namibia had not obtained the annual
       FSR from one recipient.

   •   Three contained evidence that CDC Namibia had reviewed the annual audit reports.
       However, one file contained no evidence that CDC Namibia had received the annual
       audit report.

   •   Two contained no evidence that CDC Namibia had performed any site visits during the
       recipient’s budget period. In addition, one of the files contained limited evidence of a
       site visit.

CDC Namibia did not consistently monitor the cooperative agreements for four recipients in
accordance with HHS and other Federal requirements because it did not have written policies
and procedures for the monitoring process. As a result, CDC Namibia did not have assurance
that PEPFAR funds were used as intended by law. Subsequent to the audit period that we
reviewed, CDC Namibia drafted standard operating procedures for managing cooperative
agreements, including monitoring. We did not test these procedures and cannot comment on
their effectiveness.

RECOMMENDATION

We recommend that CDC Namibia implement standard operating procedures for monitoring
recipients’ use of PEPFAR funds. These include, but are not limited to, documenting its:

   •   review of progress reports;

   •   review of expenditures and FSRs; and

   •   site visits, discussions, and meetings with recipients.


                                                 ii
CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS
In comments on our draft report, CDC concurred with our recommendation. CDC also described
the corrective actions it had taken to improve and standardize grant administration, i.e., placing
greater emphasis on documenting partner accountability, on technical oversight, and on strong
financial management.

The actions CDC described included, but were not limited to, the following:

   •   developing expanded written standard operating procedures (SOPs) for grant
       management and monitoring,

   •   incorporating annual progress reports and financial status reports into SOPs,

   •   establishing an annual monitoring plan for each grantee,

   •   expanding and restructuring the CDC Namibia Management and Operations team to
       enhance internal coordination and build team capacity, and

   •   establishing controls to ensure all project officers take the CDC International Project
       Officer course and periodic refreshers.

CDC’s comments are included in their entirety as the Appendix.




                                                iii
                                                        TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              President’s Emergency Plan for AIDS Relief .................................................... 1
              Centers for Disease Control and Prevention ...................................................... 1
              Centers for Disease Control and Prevention in Namibia ................................... 2
              Internal Controls ............................................................................................... 2
              Department of Health and Human Services Requirements and Policies ........... 2
              Reports That Recipients Are Required to File ................................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 3
               Objective ............................................................................................................ 3
               Scope .................................................................................................................. 3
               Methodology ...................................................................................................... 4

FINDINGS AND RECOMMENDATION............................................................................. 5

          MONITORING OF RECIPIENTS’ USE OF PRESIDENT’S
           EMERGENCY PLAN FOR AIDS RELIEF FUNDS ................................................ 5
               Department of Health and Human Services Requirements and Policies ........... 5
               Evaluating Recipients’ Program Performance ................................................... 7
               Monitoring Recipients’ Financial Performance ................................................. 7
               Reviewing Audit Reports ................................................................................... 8
               Conducting Site Visits ....................................................................................... 8

          INADEQUATE INTERNAL CONTROLS FOR MONITORING
            RECIPIENTS’ COOPERATIVE AGREEMENTS .................................................... 8

          RECOMMENDATION ................................................................................................. 9

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS ............ 9

APPENDIX

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                    iv
                                              INTRODUCTION

BACKGROUND

President’s Emergency Plan for AIDS Relief

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). The 2003 Act also requires the establishment of a Coordinator of United States
Government Activities to Combat HIV/AIDS Globally within the Office of the Secretary of State
and gives the Coordinator primary responsibility for coordination and oversight of all Federal
Government activities to combat the HIV/AIDS pandemic internationally. PEPFAR’s initial
authorization of $15 billion expired on September 30, 2008.

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act),
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria. The 2008 Act requires the
Offices of Inspector General of the Department of State and Broadcasting Board of Governors,
the Department of Health and Human Services (HHS), and the United States Agency for
International Development to provide oversight of the programs implemented under the 2008
Act.

Centers for Disease Control and Prevention

The 2008 Act gives HHS’s Centers for Disease Control and Prevention (CDC) a leadership role
in several key areas of research and evaluation in implementing HIV/AIDS programs, including
program monitoring, impact evaluation, and operations research. Through its Global HIV/AIDS
Program, CDC implemented PEPFAR, working with ministries of health and other in-country
partners to combat HIV/AIDS by strengthening health systems and building sustainable
HIV/AIDS programs in more than 75 countries in Africa, Asia, Central and South America, and
the Caribbean.

HHS receives PEPFAR funds from the Department of State through a memorandum of
agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195), as amended, and,
the 2003 Act, as amended. 1 For fiscal year (FY) 2009, CDC “obligated” 2 PEPFAR funds
totaling $1.2 billion.

1
 In addition to the funds CDC receives from the Department of State, it also receives direct HHS funding for its
Global HIV/AIDS Program. We did not review these funds.
2
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period per HHS’s Grants Policy Directives (GPD) 1.02, the highest level of
policy within HHS that governs grants.




                                                          1
Centers for Disease Control and Prevention in Namibia

CDC has offices in many of the countries where it awards PEPFAR funds. CDC established an
office in Windhoek, Namibia (CDC Namibia), in 2002. Since then, CDC Namibia has assisted
the Namibian Ministry of Health and Social Services (Ministry) to develop a comprehensive
package of HIV/AIDS prevention, care, and treatment activities. CDC works with the World
Health Organization and the Ministry to develop and implement a standardized clinical approach
that integrates basic primary care with the delivery of specialized services for HIV/AIDS,
sexually transmitted and opportunistic infections, maternal and child health, chronic diseases,
tuberculosis (TB), and malaria. The main focus of the PEPFAR program in Namibia is to
strengthen health systems, prevent new HIV and TB infections, provide care and treatment
services, support TB and HIV programs, and establish a global disease detection program.
CDC awarded $41 million to five recipients, made up of government agencies and both for-profit
and nonprofit entities, in Namibia during FY 2009. CDC awarded these funds through
cooperative agreements, which it uses in lieu of grants when it anticipates the Federal
Government’s substantial involvement with recipients in accomplishing the objectives of the
agreements. The laws and regulations that apply to Federal grants also apply to cooperative
agreements. CDC Namibia is responsible for managing four of the PEPFAR cooperative
agreements in Namibia. 3

Internal Controls

Pursuant to Office of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control, control activities include policies, procedures, and
mechanisms in place to help ensure that agency objectives are met. Monitoring the effectiveness
of internal control should occur in the normal course of business. In addition, periodic reviews
and reconciliations or comparisons of data should be included as part of the regular assigned
duties of personnel.
Department of Health and Human Services Requirements and Policies

The HHS Awarding Agency Grants Administration Manual (the Manual) provides detailed
guidance for HHS staff members who manage grants and cooperative agreements. It implements
the policies and procedures required by HHS’s GPD.

The GPD 1.02 defines stewardship as:

           ... the responsible management of Federal grant funds by Federal officials. This
           involves ensuring adequate separation of responsibilities and internal controls,
           written policies and procedures and assessment of compliance with them,
           oversight of the process of evaluating and awarding grants, and active postaward
           management of grants to ensure that performance is satisfactory, funding is properly
           and prudently utilized, and applicable laws and regulations are followed ....


3
    CDC Headquarters in Atlanta, Georgia, manages one of the cooperative agreements in Namibia.

                                                         2
According to the GPD 1.02, “monitoring” is a process for reviewing the performance of
programmatic and business management aspects of a grant by collecting and assessing
information from reports, audits, site visits, and other sources.

The Manual, chapters 3.06.106, emphasizes the documentation required for postaward
monitoring and oversight of grantee performance. Chapter 1.04.104 provides HHS staff
members with detailed guidance for managing grants.

Reports That Recipients Are Required to File

Pursuant to 45 CFR §§ 74.51(b) and 74.52(a)(1)(iv) and 45 CFR §§ 92.40 and 92.41(b)(4),
recipients are required to file periodic progress reports and financial status reports (FSR). 4
Annual reports must be filed within 90 days after the award year ends as specified in the
regulation. 5

The Grants Policy Statement (GPS) states that foreign recipients are subject to the audit
requirements specified in 45 CFR § 74.26(d). This regulation requires recipients that are
commercial organizations to file either a financial-related audit or an audit that meets the
requirements of OMB Circular A-133, if they expend more than $500,000 on one or more
Federal awards during a FY.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CDC Namibia monitored recipients’ use of PEPFAR
funds in accordance with HHS and other Federal requirements.

Scope

From October 1, 2008, through September 30, 2009, CDC obligated PEPFAR funds totaling $1.2
billion. Our audit focused on $39.5 million that CDC awarded to four recipients 6 in Namibia
through cooperative agreements. These funds were for recipients’ budget periods from April 1,
2009, through September 29, 2010.


4
  The grant rules in 45 CFR part 74 apply to nonprofit organizations, hospitals, institutions of higher education, and
commercial organizations. The grant rules in 45 CFR part 92 apply to State, local, and tribal governments. The
HHS GPS, which provides general terms and conditions and HHS policies for grantees and others interested in the
administration of HHS grants, specifies that foreign grantees must comply with the requirements of 45 CFR parts 74
and 92, as applicable to the type of foreign organization (GPS II-113). Thus, the rules in 45 CFR part 74 apply to a
foreign nonprofit organization or university, and the rules in 45 CFR part 92 apply to a foreign government.
5
 The grant rules allow for extensions of due dates for financial reports in certain instances, upon agency approval
(45 CFR § 74.52(a)(1)(iv)). We did not see any evidence that CDC approved any extensions in the award files we
reviewed.
6
 There were five recipients of PEPFAR funds in Namibia, but we reviewed only four recipients because CDC
Headquarters in Atlanta, Georgia, monitored the cooperative agreement for one recipient.

                                                          3
We did not review the overall internal control structure of CDC Namibia. We limited our review
to CDC Namibia’s internal controls for monitoring recipients’ use of PEPFAR funds.
Subsequent to the audit period that we reviewed, CDC Namibia drafted standard operating
procedures for managing cooperative agreements, including monitoring. We did not test these
procedures and cannot comment on their effectiveness.

We conducted fieldwork at CDC’s offices in Atlanta, Georgia, from May through July 2011 and
CDC Namibia in Windhoek, Namibia, from October through November 2011.

Methodology

To accomplish our objective, we:

   •   reviewed relevant Federal laws and regulations, HHS requirements and guidance, and
       CDC Namibia’s policies and procedures;

   •   analyzed all four cooperative agreements monitored by CDC Namibia and reviewed the
       contents of CDC Namibia’s cooperative agreement files;

   •   interviewed CDC officials concerning award files for the cooperative agreements
       reviewed;

   •   reviewed the official award file at CDC for the reporting and monitoring documentation
       (e.g., the notice of award, the FSR, progress reports, correspondence, and audit reports)
       that is required for each of the cooperative agreements;

   •   interviewed CDC Namibia officials;

   •   reviewed CDC Namibia’s process for obtaining and reviewing the recipients’ FSRs,
       annual progress reports, and audit reports;

   •   reviewed CDC Namibia’s process for conducting and documenting site visits, meetings,
       and discussions with award recipients; and

   •   visited four recipients of PEPFAR cooperative agreements that provided education,
       counseling, or treatment on HIV/AIDS prevention.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                4
                                FINDINGS AND RECOMMENDATION

CDC Namibia did not always monitor recipients’ use of PEPFAR funds in accordance with HHS
and other Federal requirements. There was evidence that CDC Namibia performed some
monitoring of recipients’ use of PEPFAR funds. However, most of the recipient cooperative
agreement files did not include required documents or evidence that CDC Namibia had
monitored all cooperative agreements. Of the four files reviewed:

    •    Three contained no evidence that CDC Namibia had evaluated the recipients’ annual
         progress reports. In addition, CDC Namibia had not obtained the annual progress report
         from one recipient.

    •    Two contained no evidence that CDC Namibia had reviewed the recipients’ annual FSRs.
         In addition, CDC Namibia had not obtained the annual FSR from one recipient.

    •    Three contained evidence that CDC Namibia had reviewed the annual audit reports.
         However, one file contained no evidence that CDC Namibia had received the annual
         audit report.

    •    Two contained no evidence that CDC Namibia had performed any site visits during the
         recipient’s budget period. In addition, one of the files contained limited evidence of a
         site visit.

CDC Namibia did not consistently monitor the cooperative agreements for four recipients in
accordance with HHS and other Federal requirements because it did not have written policies
and procedures for the monitoring process. As a result, CDC Namibia did not have assurance
that PEPFAR funds were used as intended by law.

MONITORING OF RECIPIENTS’ USE OF PRESIDENT’S EMERGENCY PLAN FOR
AIDS RELIEF FUNDS

Department of Health and Human Services Requirements and Policies

The Manual, chapter 1.04.104-3(E), Program Officials Responsibilities, lists the activities the
program officials 7 are responsible for in the postaward administration phase. These activities
include, but are not limited to, the following:




7
  “Program official” refers to the project officer assigned to the cooperative agreement. The project officer has
primary responsibility for defining programmatic objectives; detailing objectives in program announcements;
providing advice on the suitability of applications for funding; and guiding the postaward administration of projects
(the Manual, chapter 1.04.104 (E)(1).


                                                          5
    •    monitoring the recipient’s performance to ensure compliance with technical
         requirements,

    •    conducting site visits that are thoroughly documented,

    •    reviewing progress reports,

    •    reviewing financial reports, and

    •    reviewing other items requiring approval.

The Manual, chapter 3.06.106-5, Grant Related Documentation and Files, lists the
documentation for postaward administration and monitoring that must be included in the award
file. That documentation includes:

    •    all financial, performance, and other reports required by the terms and conditions of the
         award and evidence of program officials’ review and acceptability;

    •    site visit reports; and

    •    monitoring and assessment of financial performance.

According to the Manual, chapter 3.06.106-2(I)(1) and (J)(2), written documentation is required
for each monitoring action that has taken place, and the program official must document the
adequacy of the recipients’ performance at least annually during the project period.

Also, the Funding Opportunity Announcement (FOA) 8 states that “[i]n a cooperative agreement,
HHS staff are substantially involved in program activities, above and beyond routine grant
monitoring” by engaging in activities such as:

    •    monitoring project and budget performance,

    •    meeting on a monthly basis to assess expenditures in relation to the approved work plan,

    •    meeting on a quarterly basis to assess financial progress reports, and

    •    meeting on an annual basis to review the annual progress.




8
  The FOA is a formal published announcement of the availability of Federal funding under one or more Federal
financial assistance programs. The announcement invites applications and provides information about the funding
opportunity, such as eligibility and evaluation criteria, funding preferences/priorities, how to obtain application
materials, and the submission deadline. HHS grant monitoring activities vary by program.


                                                         6
Evaluating Recipients’ Program Performance

Program officials are responsible for evaluating annual progress reports and obtaining delinquent
ones. 9 They also are responsible for determining whether the progress reports contain sufficient
information to adequately evaluate program performance (the Manual, chapter 1.04.104,
Attachment 1, Overview of Responsibilities, and 1.04.104(E)(4)(b)(3)). Recipients must
complete and submit annual progress reports no later than 90 days after the award year,
according to 45 CFR §§ 74.51(b) and 92.40(b)(1). The annual progress report is for the
recipients’ 12-month budget period.

CDC Namibia’s files did not contain evidence that it had evaluated the annual progress reports in
accordance with HHS and other Federal requirements. The progress reports for three of the
recipients contained no evidence that CDC Namibia had reviewed them. We noted that the
progress reports for one of the three recipients did not address the recipient’s progress in
achieving goals and objectives. CDC Namibia had not obtained, nor was there evidence that it
had attempted to obtain, the progress report from the fourth recipient.

CDC Namibia could not determine whether recipients met the goals and objectives in their
approved applications without reviewing the annual progress reports. Although there was no
evidence that CDC Namibia reviewed annual progress reports, it had reviewed interim progress
reports 10 for all four recipients.

Monitoring Recipients’ Financial Performance

A program official is responsible for evaluating and obtaining any delinquent FSRs 11 per the
Manual, chapter 1.04.104, Attachment 1, Overview of Responsibilities. Also, per the FOA,
program officials are responsible for monthly monitoring of grantees’ expenditures to determine
whether expenditures relate to the cooperative agreement.

CDC Namibia’s cooperative agreement files did not contain evidence that it had reviewed two of
the FSRs in accordance with HHS and other Federal requirements. Additionally, the FSR for
one recipient was not found in either the official award file maintained by CDC or the CDC
Namibia recipient file.

There was no evidence that CDC Namibia attempted to obtain the missing FSR. In addition,
there was no evidence that CDC Namibia met with recipients either monthly or quarterly to
assess expenditures or financial progress. In the absence of CDC Namibia’s review of the annual
FSRs, it might not be aware of a recipient’s expenditures of PEPFAR funds.


9
 The main purpose of the progress report is to explain the recipient’s progress (or lack thereof) toward goals
established in the approved application.
10
  The interim progress report is due 90 days prior to the end of the budget period and can be used in lieu of the non-
competing continuation application for the next budget period, per the GPD 1.02. The interim progress report does
not cover the entire budget period.
11
     The annual FSR is the mechanism that is used to monitor grantee expenditures.

                                                          7
Reviewing Audit Reports
The Manual, chapter 1.04.104(E)(b)(3), requires program officials to evaluate “programmatic
performance, progress, and any requested changes in scope or objectives from the approved
application using information in progress and financial reports, site visits, correspondence, and
other sources.” Program officials are required to provide input to the Grants Management Office
on findings in audits of recipients, including those conducted under OMB Circular A-133, per
the Manual, chapter 1.04.104(E)(b)(14).

In accordance with HHS and other Federal requirements, CDC Namibia reviewed the audit
reports of three recipients. In its review, CDC Namibia noted the audit issues and listed actions
for resolving outstanding ones. However, one recipient’s file did not contain evidence that CDC
Namibia received the annual audit report. Without an audit report to review, CDC Namibia
would not be aware of the financial condition of the recipient, and, therefore, could not
determine whether the recipient would be able to meet its obligations under the cooperative
agreement.

Conducting Site Visits

The Manual, chapter 1.04.104(E)(b)(2) and (9), requires program officials to conduct site visits
to substantiate progress and compliance with the award or to provide postaward technical
assistance. They also are responsible for thoroughly documenting onsite reviews and any
discussions with the recipient that may influence the project’s administration.

CDC Namibia’s files documented site visits for two recipients, but did not thoroughly document
one of the visits. The documentation for that site visit consisted of handwritten notes in a daily
logbook, which contained only the date and a few comments. The documentation did not
include who was present, what issues were discussed, or the resolution or followup issues. The
files did not contain evidence that CDC Namibia had conducted site visits at the remaining two
recipients. Although CDC Namibia’s files that we reviewed were missing documentation of
some site visits, while conducting our audit we observed CDC Namibia staff members
interacting or communicating with recipients either daily or several times a week. Staff
members interacted with recipients through either telephone or face-to-face meetings. Site visits
are an important way to evaluate the progress being made towards the goals and objectives of the
recipient’s cooperative agreement.

INADEQUATE INTERNAL CONTROLS FOR MONITORING RECIPIENTS’
COOPERATIVE AGREEMENTS

CDC Namibia did not consistently monitor the cooperative agreements of four recipients in
accordance with HHS and other Federal requirements because it did not have written policies
and procedures for the monitoring process. As a result, CDC Namibia did not have assurance
that PEPFAR funds were used as intended by law. Subsequent to the audit period that we
reviewed, CDC Namibia drafted standard operating procedures for managing cooperative
agreements, including monitoring. We have not analyzed or tested these procedures.



                                                8
RECOMMENDATION

We recommend that CDC Namibia implement standard operating procedures for monitoring
recipients’ use of PEPFAR funds. These include, but are not limited to, documenting its:

   •   review of progress reports;

   •   review of expenditures and FSRs; and

   •   site visits, discussions, and meetings with recipients.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS
In comments on our draft report, CDC concurred with our recommendation. CDC also described
the corrective actions it had taken to improve and standardize grant administration, i.e., placing
greater emphasis on documenting partner accountability, on technical oversight, and on strong
financial management. The actions CDC described included, but were not limited to, the
following:

   •   developing expanded written standard operating procedures (SOPs) for grant
       management and monitoring,

   •   incorporating annual progress reports and financial status reports into SOPs,

   •   establishing annual monitoring plan for each grantee,

   •   expanding and restructuring the CDC Namibia Management and Operations team to
       enhance internal coordination and build team capacity, and

   •   establishing controls to ensure all project officers take the CDC International Project
       Officer course and periodic refreshers.

CDC’s comments are included in their entirety as the Appendix.




                                                 9
APPENDIX
                                                                                                                 Page 10f2


APPENDIX: CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




              U.S. DEPARTMENT OF HEAI.TH AND I-IUMAN SERVICES 	                          Public Health Service


                                                                                         Centers for Disease Control
                                                                                          and Prevention (CDC)
                                                                                         Allanta GA 30333


      TO: 	           Inspector General, Department o f Health and Human Services

      FROM: 	         Director, Centers for Disease Control and Prevention

      DATE: 	         October I, 20 12

      SUBJECT: 	 Office of Inspector General's Draft Report: "The Centers for Disease Control and
                      Prevent ion's Namibia Ornce Did Not Always Properly Monitor Recipient'S Use
                      of the President's Emergency Plan for A IDS Relief Funds" (A-04- 12-04020)                        l
      The Centers for Disease Control and Prevention (CDC) appreciates the opportunity to rev iew the
      subject draft report.

      The Office of Inspector General (DIG) recommends that CDC Namibia implement standard
      operating procedures for monitoring recipients' use of PEPFAR fund s, including but not lim ited
      to documenting its review of progress reports; review of expenditures and FSRs; and site visits,
      discllssions, and meetings with recipiellts.

      CDC Response : CDC concu rs with thi s recommendation. Before the OIG review, CDC
      headquarters conducted a Country Management Support (CMS) rev iew of CDC Namibia's fiscal
      management systems. CMS reviews contain a comprehensive assessment of both programmatic
      and fiscal management activities and incl ude extensive on-site reviews of fiscal policies,
      procedures, controls, and records. These reviews are done routinely and have been conducted for
      all of CDC's PEPFAR-supportec! offices. Findings from the CMS Namibia fiscal management
      review agree wit h the 01G findings. Consequently, plans to address these fin dings were initi ated
      before the DIG visit and now have been fu lly implemented. The corrective action taken improves
      and standardizes gran! administration, placing a greater emphasis on documenting partner
      accountability, tcchnical oversight, and st rong financial management. These acti ons include but
      arc not limited to the follow ing:

         • 	 Developing expanded written standard operat ing procedures (SOPs) for grant 

             management and monitoring. 

         • 	 Incorporat ing annual progress repons and I1nancial status reports into SOPs
         • 	 Establishi ng annllal monitoring plan fo r each grantee.
         • 	 Expanding and restructuring the CDC Nam ibia Management and Operations team to 

             enhance internal coord ination and build team capacity. 

         • 	 Establishing controls to ensllre all project officers take the CDC international Proj ect 

             Officer course and period ic refreshers. 

                                                                                                           Page 2 of2




These actions will strengthen CDC Namibia's gra ntee m o ni tori ng activities. They will also
e ns ure that evidence o f these activit ies is doc llmen ted to accurate ly reflect the full scope of
m o nitoring that has long been standard practice. This m on itoring includes weekly call s, s ite
v is its to evalu ate act iviti es, progress and performance, monthly/quarterly m eeti ngs at partner
headquarters, and trainings and workshops to bui ld th e capacity of g ra ntee fisca l
man agement. Notably, CDC Namibia w ill a lso con ti nue its cl ose collaboration and dail y
mo nitoring of its partners, including the bu ildi ng of progranunat ic and fi scal capaci ty, which is
essential to long term program s ll stain abi lit y.
C DC is COm t11illed to achievi ng the highest levels of fi scal accountability a nd w ill conti nu e to
assess progra m and partner fiscal man agem ent pract ices through its eMS prog ram to ensure
fed era l and HHS requi re m ents are m et and m ai ntain ed.
Thank you for your review of thi s c ritical health issue. Please direct any ques tions regarding th is
respo nse to Mike Tropauer at (404) 639-7009 o r iggao@cdc.gov.


                                               ~~Thomas R. Fn ede n, M .D., M.P.H.
